  Office of Inspector General
      Audit Report


 DOT HAS OPPORTUNITIES TO ADDRESS
 KEY RISK AREAS FOR PHASE 2 OF THE
DULLES CORRIDOR METRORAIL PROJECT
UPON APPROVAL OF FEDERAL FINANCING
        Department of Transportation

        Report Number: MH-2013-054
                  March 2
           U.S. Department of
                                                 Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:    ACTION: DOT Has Opportunities To Address                 Date:    March 20, 2013
            Key Risk Areas for Phase 2 of the Dulles
            Corridor Metrorail Project Upon Approval
            of Federal Financing
            Report No. MH-2013-054

  From:     Calvin L. Scovel III                                  Reply to
                                                                  Attn. of:   J-1
            Inspector General

    To:     Deputy Secretary


           The Dulles Corridor Metrorail Project (Dulles project) will add 11 metro stations
           and 23.1 miles to the Washington Metropolitan Area Transit Authority’s
           (WMATA) Metrorail system. The Metropolitan Washington Airports Authority
           (MWAA) is responsible for constructing both phases of the Dulles project and will
           turn over operation of the rail lines to WMATA once completed. Phase 1 has a
           total estimated cost of approximately $3.1 billion and is expected to start
           transporting passengers in 2014. Phase 2, which is not yet under construction, is
           estimated to cost $2.5 billion to $3.8 billion, with the majority of funding
           supported by revenues from the Dulles Toll Road. While Phase 1 received
           $900 million in Federal grant funds, there is no planned Federal grant funding for
           Phase 2. In response to stakeholder concerns about the cost, scope, and financing
           of Phase 2, Department of Transportation (DOT) Secretary Ray LaHood brokered
           a Memorandum of Agreement (MOA) in December 2011 between the
           Commonwealth of Virginia, Fairfax and Loudoun Counties, MWAA, WMATA,
           and DOT. The MOA called for reducing Phase 2 costs, providing a $30 million
           credit subsidy for Federal loans authorized by the Transportation Infrastructure
           Finance and Innovation Act (TIFIA), and establishing an oversight role for DOT’s
           Federal Transit Administration (FTA).

           Citing concerns about the oversight of the Dulles project and the reasonableness of
           funding assumptions for the Dulles Toll Road, Representatives Frank Wolf and
           Tom Latham requested that we conduct an audit of Phase 2 of the Dulles project.
           Accordingly, our objectives were to (1) determine whether DOT’s proposed
                                                                                                                 2


oversight role for Phase 2 adequately addresses key project risk areas—including
cost, schedule, and financing—and (2) assess whether MWAA’s Phase 2 project
plans rely upon reasonable assumptions of revenue from the Dulles Toll Road.

To conduct our work, we interviewed officials at the Office of the Secretary of
Transportation (OST), FTA, MWAA, and the TIFIA Joint Program Office (JPO)
in the Federal Highway Administration’s (FHWA) Innovative Program Delivery
Office. 1 We reviewed laws, procedures, and guidance and collected information
on potential TIFIA evaluation and oversight mechanisms. We also assessed the
2005, 2009, and 2012 Dulles Toll Road traffic and revenue studies as well as the
value of time (VOT) estimates used in the 2009 and 2012 studies. We conducted
this audit in accordance with generally accepted Government auditing standards.
Exhibit A describes our scope and methodology and related work. Exhibit B
identifies the organizations we visited or contacted.

RESULTS IN BRIEF
DOT has not fully developed an oversight strategy for Phase 2 of the Dulles
project because the local funding partners 2—MWAA and Fairfax and Loudoun
Counties—have yet to receive approval of Federal credit assistance for the project.
Until Federal credit assistance is approved, there are no obligated Federal dollars
to oversee. FTA has taken some oversight actions, such as requesting a Phase 2
project management plan (PMP) from MWAA. However, according to FTA, it
will not finalize an oversight strategy until there is clear support from all parties as
to project structure and financing, including any Federal role. If the local funding
partners are granted TIFIA credit assistance, 3 FTA and the TIFIA JPO would
finalize an oversight approach. Until then, we cannot determine if DOT’s
oversight 4 of Phase 2 of the Dulles Project will be sufficient. To assist FTA as it
finalizes an oversight strategy, our prior audits of major transportation projects are
instructive and offer opportunities for DOT to consider leveraging existing
oversight mechanisms to address key risk areas for Phase 2, including cost and
schedule, project financing, and stakeholder agreements. For example, effective




1
  The TIFIA JPO coordinates and manages day-to-day activities associated with implementing the program. In
coordination with the Operating Administration, the TIFIA JPO is responsible for monitoring projects for compliance
with credit agreement terms and conditions, and for changes in risk that may affect subsidy costs.
2
  MWAA and Fairfax and Loudoun Counties are local funding partners for Phase 2. The Commonwealth of Virginia is
providing Phase 2 funding as well.
3
  The TIFIA program is governed by the Federal Credit Reform Act of 1990, which requires DOT to establish a capital
reserve, or “subsidy amount,” to cover expected credit losses before it can provide TIFIA credit assistance.
4
  DOT oversight refers to joint FTA and FHWA activity.
                                                                                                                  3


use of a financial management oversight contractor (FMOC), a key FTA oversight
tool, 5 could help MWAA identify and mitigate financing risks.

Our assessment of Dulles Toll Road revenue estimates suggests that the
assumptions MWAA used to arrive at the estimates are generally reasonable.
Because MWAA’s Phase 2 funding depends heavily on the revenue the toll road
can produce and sustain, sound revenue forecasts are critical to the success of
MWAA’s funding plans. We focused on the following inputs to the toll revenue
forecasts published in a March 2012 report commissioned by MWAA:
(1) population and employment forecasts, (2) fuel price projections, and (3) VOT
estimates. The population and employment forecasts and fuel price projection
match those from reputable sources. For example, the baseline population and
employment inputs used are those reported in the most recent U.S. Census. The
method of generating VOT estimates deviates from typical practice by
incorporating travelers’ anti-toll sentiments and omitting consideration of
travelers’ preferences for public transit. However, the resulting VOT estimates are
in line with those of prior analysis.

We are not making recommendations at this time because it is premature to do so
until the project is approved for Federal credit assistance. However, several
lessons learned from our past audits could be instructive as DOT finalizes its
oversight strategy.

BACKGROUND
The Dulles project will add the new “Silver Line” to the WMATA Metrorail
system, as shown in figure 1 on page 4. Construction for the Dulles project has
been divided into two phases:

    •   The first phase (Phase 1) of the Dulles project runs from near the existing West
        Falls Church Metro station through the Tyson’s Corner area to Wiehle Avenue
        in Reston, VA. Phase 1 is under construction with a current scheduled
        substantial completion date of August 30, 2013, and a projected revenue
        operations date of January 10, 2014. 6 FTA is responsible for oversight of Phase
        1 because the project received a $900 million grant from FTA’s New Starts
        program, including $77.3 million from American Recovery and Reinvestment
        Act funds.


5
  FMOCs can evaluate the financial condition and financial capability of project sponsors and review and assess the
sufficiency of their funding sources to meet future operating and maintenance costs in addition to the capital costs
required to design and construct the project.
6
  Substantial completion occurs when project activities are accomplished and the project is ready for revenue
operations. Revenue service occurs when a vehicle is available to the general public and there is an expectation of
carrying passengers.
                                                                                                                     4


    •   The planned route for Phase 2 extends Metrorail another 11.4 miles from
        Reston to Washington Dulles International Airport and into Loudoun County.
        Preliminary engineering 7 was completed in March 2012, and the initial design-
        build contract for final design and construction is scheduled for award in May
        2013.

Figure 1. Map of the Dulles Project, Phases 1 and 2




Source: Dulles Corridor Metrorail Project

Although the MOA was brokered in December 2011, it was not until July 2012
that all project funding partners agreed to commit funding to Phase 2. In March
2012, MWAA delivered preliminary engineering materials to Fairfax and
Loudoun Counties, triggering a review period for the counties to decide whether
they wanted to continue as project partners. The cost was estimated at
approximately $2.7 billion, provided the counties secured financing for a Silver

7
  Preliminary engineering provides a basis to manage project implementation risks. It includes (1) identification of all
environmental impacts, (2) design of all major or critical project elements, (3) completion of all cost estimating,
(4) definition of procurement requirements and strategies to deliver project service, and (5) solidification of local
funding commitments to the project.
                                                                                                               5


Line station and five parking garages. On April 10, 2012, the Fairfax County
Board of Supervisors reaffirmed its commitment to Phase 2, agreeing to fund
16.1 percent of the Phase 2 cost; the Loudoun County Board of Supervisors voted
on July 3, 2012, to fund its 4.8 percent share of the Phase 2 cost.

Per the MOA, MWAA will assume a greater share of Phase 2 project costs than
the counties. MWAA can potentially finance nearly two-thirds of the project with
revenue from the Dulles Toll Road, which it operates following a 2006 transfer
agreement from the Virginia State Department of Transportation.

Our two prior reviews of the Dulles project have identified both project risks and
oversight concerns. In our July 2007 baseline report, we advised FTA to closely
monitor MWAA’s project management. 8 In our July 2012 report on FTA Phase 1
oversight, we found that more action was required to mitigate potential cost
increases and depletion of the budget contingency. 9 Exhibit A provides additional
details about these report findings.

DOT HAS NOT FULLY DEVELOPED AN OVERSIGHT STRATEGY
BECAUSE LOCAL FUNDING PARTNERS HAVE YET TO RECEIVE
APPROVAL OF FEDERAL CREDIT ASSISTANCE
As of September 2012, DOT has not fully developed an oversight strategy for
Phase 2 because the local funding partners have not received approval of Federal
credit assistance through TIFIA. Until DOT finalizes its oversight strategy upon
approval of Federal credit assistance, we cannot determine if its oversight of Phase
2 will be sufficient. However, our prior audits on major transportation projects
point to opportunities for DOT to leverage existing oversight mechanisms to
address key risk areas for Phase 2.

FTA Has Not Yet Finalized a Formal Oversight Strategy
Although the MOA assigns FTA responsibility for providing Federal oversight of
Phase 2 of the Dulles project, FTA will not finalize a formal oversight strategy
until there is clear support from all parties as to project structure and financing,
including any Federal role. However, FTA has taken some oversight actions to
date. For example, FTA has requested a Phase 2 PMP from MWAA. In addition,
FTA reported in 2012 that it assigned its project management oversight contractor




8
  Baseline Report on Major Project Monitoring of the Dulles Corridor Metrorail Project (OIG Report Number MH-
2007-060), July 27, 2007. OIG reports are available on our Web site: www.oig.dot.gov.
9
  Actions Needed to Improve FTA’s Oversight of the Dulles Corridor Metrorail Project’s Phase 1 (OIG Report Number
MH-2012-155), July 26, 2012.
                                                                                                                    6


(PMOC) 10 from Phase 1 to review the preliminary cost and schedule information
for Phase 2. On March 1, 2013, FTA formally authorized the PMOC’s
involvement in Phase 2 oversight by issuing a task order to the PMOC.

Unlike Phase 2, Phase 1 is subject to specific oversight requirements because it
relies on New Starts grant funding from FTA. For example, FTA must approve the
advancement of a New Starts project to the next stage, as it proceeds from
preliminary engineering through final design to the award of a full funding
agreement and construction. During this process, FTA obtains input on a project’s
readiness for advancement from PMOC reviews, which can include evaluations of
the project’s cost, schedule, and PMP. Since New Starts funding is not planned for
Phase 2, FTA informed us it has discussed providing a different level of Federal
oversight for Phase 2 than provided in Phase 1. However, FTA has emphasized
that its oversight of Phase 2 will be equally robust.

Phase 2 Local Funding Partners Have Yet To Secure TIFIA Credit
Assistance, Which Will Impact the Development of DOT’s Oversight
Approach
Federal credit assistance for Phase 2 has not been finalized because MWAA and
Fairfax and Loudoun Counties have not yet submitted formal applications for
TIFIA credit assistance, a Federal credit program that the MOA committed to the
local funding partners in December 2011. Specifically, the MOA states that DOT
will provide Federal credit assistance to MWAA and Fairfax and Loudoun
Counties for project components that meet TIFIA statutory and regulatory
requirements.

The local funding partners have taken some initial steps to request TIFIA credit
assistance. For example, on behalf of all of local funding partners, MWAA
submitted a Letter of Interest in late December 2011 for a total of $1.95 billion in
credit assistance, the initial step in the TIFIA application process. 11 In response to
the Letter of Interest, DOT invited the local funding partners to submit application
packages, the next step in the process.

However, local funding partners have not completed the remaining steps required
to secure TIFIA credit assistance. Before submitting an application for TIFIA
credit assistance, each applicant is required to provide DOT with written
acknowledgment that it agrees to the financing structure proposed in each TIFIA


10
   FTA uses PMOCs to oversee projects in accordance with FTA guidance and report regularly on needed corrective
actions. PMOCs evaluate a grantee’s cost estimates and technical and management capacity and later monitor
implementation.
11
   In December 2011, the local funding partners pursued total TIFIA credit assistance in an aggregate amount up to the
maximum of 33 percent of eligible project cost. Total eligible project cost at that date was $5.894 billion, which
includes Phase 1 and Phase 2 of the Dulles Project.
                                                                                                       7


application submitted. As of September 2012, MWAA and Fairfax and Loudoun
Counties had not agreed to each others’ proposed financing structures.

Upon DOT approval of TIFIA assistance, FTA would play an important role in
overseeing the use of Federal credit assistance. According to the TIFIA JPO, it
relies heavily on DOT Operating Administrations’ institutional knowledge and
expertise for oversight. Specifically, an Operating Administration takes the lead in
managing project delivery risks. In the case of Phase 2, the TIFIA JPO would
coordinate with FTA to establish an oversight team and help develop a Project
Oversight and Monitoring Plan. This plan, which serves as a management tool for
each project, would be tailored based on the project’s risk profile and the
Operating Administration’s oversight requirements. However, FTA has not fully
developed project oversight criteria since there are no obligated Federal dollars to
oversee until project stakeholders are approved for TIFIA assistance.

DOT Has Opportunities To Consider Addressing Phase 2 Risks By
Leveraging Existing Oversight Mechanisms
Because DOT will not finalize its oversight approach until project stakeholders are
approved for Federal credit assistance, we cannot determine whether its oversight
role will be sufficient to address concerns about cost, schedule, and financing
issues. However, our prior audit work on other projects points to risk areas that
DOT could consider as it finalizes its oversight strategy upon approval of Federal
credit assistance. While we recognize that DOT intends to tailor its oversight
approach for Phase 2 since there are no plans for the project to receive Federal
grant funds, it could leverage existing oversight mechanisms to identify cost and
schedule, project financing, and stakeholder agreement risks and ensure that
MWAA develops mitigation strategies to address these risks.

DOT could help mitigate cost increases and schedule delays by encouraging
the local funding partners to promptly address PMOC concerns and reach
definitive agreement on project documents. Our prior work has shown that
PMOCs can provide early warnings of cost and schedule problems, but it is
important that FTA encourage grantees to take action before these risks affect
project cost or schedule. For example, in our review of FTA’s oversight of the
$4.55 billion in Federal funds provided to the Lower Manhattan Recovery
Projects, we found that grantees had not taken sufficient action to address major
risks that FTA’s PMOCs had identified in the prior 2 years, which increased the
potential for more cost increases and schedule delays. 12 Should the PMOC identify
Phase 2 cost and schedule risks, DOT may need to work with local funding
partners to ensure that risk mitigation actions are implemented timely.

12
  Baseline Report on the Lower Manhattan Recovery Projects (OIG Report Number MH-2008-086), September 26,
2008.
                                                                                                            8


The importance of obtaining definitive agreement on cost and schedule documents
is illustrated by our May 2010 audit of FTA’s oversight of the Access to the
Region’s Core (ARC) Project. In that audit, we determined that FTA did not have
finalized project documents from New Jersey Transit (NJT)—such as the PMP,
various sub-plans, and the master schedule—which described strategies for
mitigating identified risks. 13 The PMP was of particular importance because it
serves as a roadmap for project implementation. The lack of finalized documents
could have hindered FTA’s ability to oversee NJT’s risk mitigation actions. FTA’s
request for a Phase 2 PMP is a valid initial step in mitigating project cost and
schedule risks. However, FTA may also want to work proactively with MWAA to
ensure the PMP is completed timely.

DOT could mitigate project financing risks by employing an FMOC. FMOCs
can provide valuable input by reviewing capital and operating finance plans;
analyzing budgets; determining if there are significant, unforeseen liabilities; and
critiquing the reasonableness of financing assumptions. For example, we reported
in 2002 that FTA’s FMOC raised potential concerns regarding projected operating
reserves for the Hiawatha Corridor Light Rail Transit Project, which prompted the
grantee to take actions such as implementing a fare increase earlier than planned
and providing a written commitment to aggressively monitor costs and revenues.
In addition, an FMOC validated the sufficiency of project funding for the initial
segment of the Seattle Central link Project after we raised concerns. 14

While the MOA does not identify project financing in the scope of Federal
oversight, Phase 2 project financing by MWAA and Fairfax and Loudoun
Counties has generated significant public and stakeholder concern, especially as
MWAA may finance nearly two-thirds of Phase 2 costs with revenue from the
Dulles Toll Road. Effective use of an FMOC during the early stages of Phase 2
project development could support MWAA in identifying and mitigating project
financing risks, determining the sufficiency of capital funding sources, and
providing assurance to project stakeholders that sufficient funds are available to
complete the project.

DOT could be proactive in addressing stakeholder agreements and
responsibilities up front. DOT faces a significant challenge in ensuring that
project stakeholders remain committed to the MOA and agree on specific project
issues, such as the cost estimate, scheduled completion date, final design and
alignment, and financing. One key area the MOA does not specifically address is
the responsibility among project stakeholders for cost overruns, which could

13
   Actions Needed to Mitigate Risks Associated with the Access to the Region’s Core Project (OIG Report Number
MH-2010-066), May 17, 2010.
14
   Audit of the Seattle Central Link Light Rail Project’s Initial Segment (OIG Report Number MH-2003-046),
July 7, 2003.
                                                                                                   9


create disagreement if the project costs were to increase. In our prior work, we
have seen insufficient coordination among key stakeholders, which impeded the
progress of a project. For instance, based upon our review of the ARC project, we
reported that the long-term availability of local funding was uncertain, and the
project partners had not reached an agreement for cost overrun responsibility.
Several months later, the Governor of New Jersey cited fiscal concerns and
cancelled the ARC project before a final agreement for cost overruns could be
reached. The July 2012 appointment of a DOT Accountability Officer to MWAA
presents an opportunity for DOT to assist MWAA in overseeing stakeholder
coordination and ensuring that all parties carry out the terms of the MOA.

ASSUMPTIONS USED IN MWAA’S ESTIMATION OF TOLL ROAD
REVENUES APPEAR REASONABLE
Our assessment of Dulles Toll Road revenue estimates suggests that the
assumptions MWAA used to arrive at the estimates are generally reasonable.
Because MWAA’s Phase 2 funding depends heavily on the revenue the toll road
can produce and sustain, sound revenue forecasts are critical to the success of
MWAA’s funding plans. Our review focused on the inputs and assumptions used
in forecasting toll receipts in a March 2012 report commissioned by MWAA. 15
MWAA’s population and employment forecasts and gasoline price assumptions
appear reasonable. While MWAA’s method for estimating values of time (VOT)
does not follow typical practice, the resulting assumptions also appear reasonable.

Population and Employment Forecasts and Fuel Price Projections
Match Those Produced by Reputable Sources
Based on our review, the assumptions MWAA made in forecasting population and
employment and in projecting fuel costs appear reasonable. Population and
employment forecasts help estimate the number of travelers who will use the toll
road, and higher population and employment forecasts support higher toll revenue
projections. MWAA’s baseline population and employment inputs match those
reported in the most recent U.S. Census. In addition, MWAA appears to have
applied a relatively conservative growth rate to this baseline to forecast future
population and employment. Specifically, the growth rates applied to the baselines
do not differ substantially from those published by the Metropolitan Washington
Council of Governments. Previous estimates of population and employment
growth rates for counties along the Dulles Toll Road have proven to be




15
  CDM Smith (under contract to MWAA), The Comprehensive Traffic and Revenue Study 2012 Update Working
Draft, March 2012.
                                                                                                             10


conservative, and the growth rates used in the analysis are lower for Dulles Toll
Road counties than those produced by other sources. 16

Fuel price projections also factor into forecasts of toll road use, as the number of
travelers typically decreases when the costs of driving rise. An underestimation of
fuel costs could result in an overestimation of the number of potential toll road
travelers. MWAA’s contractor assumed that gasoline prices would start at $3.59 a
gallon in 2011 and grow at an assumed inflation rate of 2.5 percent per year. We
consider these projections to be reasonable because they are similar to those used
in the U.S. Energy Information Administration’s Early 2012 Annual Energy
Outlook Reference Case. The U.S. Energy Information Administration forecasts
fuel prices under many different scenarios, and its Annual Energy Outlook
Reference Case is in the center of these—that is, it is not the most conservative or
the most radical prediction of fuel cost growth. The Reference Case presents a
“business-as-usual estimate, given known technology, technological, market, and
demographic trends.” 17

MWAA’s Estimates for Travelers’ Value of Time Were Derived
Atypically but Appear Reasonable
Overall, the VOT estimates used in MWAA’s analysis appear reasonable.
However, some aspects of the methods used to develop them may affect their
value. Travelers’ VOT estimates are one of the most significant components of toll
road revenue assumptions. VOT estimates help predict whether increased tolls will
translate into increased revenue. The higher a traveler’s VOT, the more the
traveler is willing to pay to save time, and, therefore, the higher the toll the
traveler would accept before seeking a more time-consuming alternative route to
the toll road. The importance of VOT estimates is supported by sensitivity
analyses conducted in a July 2009 Dulles Toll Road study, which determined that
a 25-percent decrease in VOT estimates would have caused a 17-percent reduction
in that study’s annual toll revenue projections. 18 Overall, MWAA’s VOT
estimates are similar to the VOT estimates derived in an earlier Virginia DOT
study, which strengthens their credibility. 19 However, two factors in MWAA’s
subcontractor’s methodology raise questions about whether the most recent
estimates represent a valid confirmation of the earlier study’s results.



16
   For example, both Woods & Poole and the Center for Regional Analysis at George Mason University predict higher
growth rates for these counties.
17
   U.S. Energy Information Administration, Annual Energy Outlook 2011, March 2011.
18
   Wilbur Smith Associates (under contract to MWAA), Comprehensive Traffic and Revenue Study Final Report, July
2009. The 2012 study represents an update of this analysis and used the VOTs estimated in 2009.
19
   Wilbur Smith Associates (under contract to the Virginia Department of Transportation), Dulles Toll Road Rate
Adjustment Review, February 8, 2005. VOT estimates in this report were prepared using a more standard methodology
by a different subcontractor than prepared the VOT estimates for MWAA.
                                                                                                               11


First, when calculating VOT estimates for the Dulles Toll Road, MWAA’s
subcontractor included a factor capturing travelers’ protest sentiments against tolls
and toll increases—a factor not typically considered in VOT estimation. In doing
so, the subcontractor effectively siphoned off the impact of travelers who might
not be willing to pay as much to use the toll road from the estimates of how much
travelers would be willing to pay for time savings. This inflated the VOT
estimates. According to the subcontractor, this factor was included in part to
prevent the VOT estimates from being too low; however, the subcontractor could
not indicate the magnitude of its impact.

Second, MWAA’s VOT estimation did not consider travelers’ preferences for
public transit—a factor typically included in other VOT estimates in the industry.
According to MWAA’s subcontractor, this factor was excluded due to problems in
the estimation process. 20 It is unclear what impact excluding this factor has had on
MWAA’s VOT estimates. However, the resulting VOT estimates are in line with
those produced in earlier work conducted using a more standard methodology,
leading us to conclude that they are reasonable.

CONCLUSION
By signing the December 2011 MOA, DOT recognized that it has a vested interest
in ensuring that MWAA completes construction for both phases of the Dulles
project and that the Metrorail system eventually reaches the federally owned
Washington Dulles International Airport. FTA will play a key role in overseeing
Phase 2, as it already does on Phase 1. While DOT’s approach to overseeing Phase
2 will differ from Phase 1, it could leverage several of its existing oversight
mechanisms to ensure that MWAA addresses cost, schedule, financing, and other
significant risks that could impact the successful completion of Phase 2. Upon
approval of Federal credit assistance, DOT could (1) work with the PMOC in a
sustained capacity to proactively assess project cost and schedule risks, (2) work
with project stakeholders to ensure timely risk mitigation actions, (3) ensure that
all project documents are completed in a timely manner including the PMP,
(4) enlist an FMOC to evaluate project financial risks, and (5) utilize the DOT
Accountability Officer to address areas of potential stakeholder disagreements and
ensure that all parties remain committed to the MOA’s terms.




20
   The subcontractor stated that survey data on travelers’ transportation preferences were unable to support the
inclusion of a modal constant for transit preference in the VOT estimation process and also produce usable results.
                                                                                12


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FTA with a draft copy of this report on February 4, 2013, and
received its response on March 13, 2013. FTA’s response is included in its entirety
in the appendix to this report. In its response, FTA reiterated its commitment to
vigilant oversight and stated that it is working with MWAA to develop key
oversight documents. We have not reviewed these oversight documents, which are
currently in draft form.

ACTIONS REQUIRED
We made no recommendations in this report that require agency actions. However,
the report presents several lessons learned from our past audits that could be
instructive as DOT finalizes its oversight strategy.

We appreciate the courtesies and cooperation of DOT representatives during this
audit. If you have any questions concerning this report, please call me at
(202) 366–5630 or Anthony Zakel, Program Director, at (202) 366–0202.

                                        #

cc: DOT Audit Liaison (M-1)
    FTA Audit Liaison (TBP-30)
    FHWA Audit Liaison (HAIM-10)
                                                                                                          13



EXHIBIT A. SCOPE AND METHODOLOGY AND RELATED WORK
We conducted this audit from March 2012 through February 2013, in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.

To address our first objective, we reviewed applicable laws, regulations,
procedures, and guidance to identify criteria against which to evaluate FTA’s
oversight of Phase 2; and collected information on potential TIFIA evaluation and
oversight mechanisms. We interviewed OST, FHWA, FTA, and MWAA officials
to discuss the genesis of the Federal oversight role in the MOA and how it might
develop as the project progresses. Our interviews also included the project’s
intended use of the TIFIA loan program, the only Federal assistance now proposed
for the project. We reviewed the status and progress of the TIFIA application
process, DOT project oversight requirements, and the process for disbursing
TIFIA funds for eligible costs.

To address the second objective, we reviewed Dulles Toll Road traffic and
revenue studies published in 2005, 2009, and 2012; 21 and documentation on the
different versions of the Metropolitan Washington Council of Governments’ travel
demand model used in those studies. For comparison purposes, we reviewed
multiple sources’ population and employment forecasts for counties near the
Dulles Toll Road, and Energy Information Administration gasoline price forecasts.
We also interviewed and requested information from CDM Smith, the contractor
who produced the Dulles Toll Road traffic and revenue studies, as well as
University of Leeds Professor Mark Wardman, the subcontractor responsible for
producing the value of time estimates used in the 2009 and 2012 studies. Our work
on toll road revenue assumptions was based on a March 8, 2012, request from
Representative Frank R. Wolf.




21
  Wilbur Smith Associates (under contract to the Virginia Department of Transportation), Dulles Toll Road Rate
Adjustment Review, February 8, 2005; Wilbur Smith Associates (under contract to MWAA), Comprehensive Traffic
and Revenue Study Final Report, July 2009; and CDM Smith (under contract to MWAA), The Comprehensive Traffic
and Revenue Study 2012 Update Working Draft, March, 2012.


Exhibit A. Scope and Methodology and Related Work
                                                                                  14


Related Work
On July 27, 2007, we issued report MH-2007-060, Baseline Report on Major
Project Monitoring of the Dulles Corridor Metrorail Project, when FTA was
considering whether to fund Phase 1 of the Dulles project. In this report, we
identified key risk indicators, including MWAA’s lack of experience in transit
construction and complications related to the number of parties involved in the
project, and emphasized the need for vigilant FTA oversight. By May 2008, FTA
took sufficient actions to close all of our recommendations.

In October 2009, we followed up on the Dulles project with a management
advisory requesting that FTA review the PMOC’s performance, develop a plan
outlining how sufficient testing of existing pier foundations would take place, and
specify oversight enhancements. FTA responded in January 2010 that (1) the
PMOC had requisite expertise; (2) it would require MWAA to develop a
comprehensive testing plan involving all 11 foundations; (3) it would employ a
full-time, on-site PMOC representative; and (4) MWAA’s testing regime was
adequate, subject to the fulfillment of certain conditions. Two key conditions were
that MWAA would (1) hire an inspections contractor to oversee testing and
(2) audit the design developed by its design-build contractor to ensure the testing
results were incorporated into the final design documents. MWAA hired CTI
Consultants to oversee testing and assist in MWAA’s quality assurance review.

On July 26, 2012, we issued report MH-2012-155, Actions Needed to Improve
FTA’s Oversight of the Dulles Corridor Metrorail Project’s Phase 1. We found
that FTA implemented an oversight process for ensuring that MWAA tested the
30-year-old pier foundations. However, when we issued our draft report in
February 2012, FTA had yet to take sufficient follow-up actions to resolve all the
issues that emerged from the test results. Our review of the testing reports
identified areas where FTA’s initial review and MWAA’s quality assurance
review overlooked omissions in the testing and errors in the test results. While
MWAA and its design-build contractor took actions to resolve these and other
deficiencies we brought to their attention in 2011, our later review of testing
documents found that FTA still had not resolved two key issues: (1) FTA did not
fully address issues we identified with the foundations’ ability to withstand lateral
loads until June 2012, and (2) the testing process had not yet provided assurance
that the structures will meet the service life specified in FTA guidance.
Furthermore, as of February 2012, FTA had not taken sufficient action to mitigate
potential cost increases or depletion of the budget contingency. In its response to
our report, FTA agreed to direct additional testing to further ensure the
50-year service life for the structures and to take acceptable actions to address the
key project issues we raised.




Exhibit A. Scope and Methodology and Related Work
                                                15


EXHIBIT B. ORGANIZATIONS VISITED OR CONTACTED
Office of the Secretary of Transportation

Federal Transit Administration

Federal Highway Administration

Metropolitan Washington Airports Authority

CDM Smith

University of Leeds - West Yorkshire, England




Exhibit B. Organizations Visited or Contacted
                                                           16



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT
Name                                    Title

Anthony Zakel                           Program Director

Betty Krier                             Program Director

Courtney Potter                         Project Manager

Anne-Marie Joseph                       Senior Engineer

Frank Schutz                            Senior Auditor

Jerrod Sharpe                           Economist

Chia-Mei Liu                            Economist

Kang Hua Cao                            Economist

Luke Brennan                            Senior Analyst

Alicia McNair                           Auditor

Christina Lee                           Writer-Editor




Exhibit C. Major Contributors to This Report
                                                                                                17



            APPENDIX. AGENCY COMMENTS



            U.S. Department of
                                                  Memorandum
            Transportation
            Federal Transit
            Administration

 Subject:   INFORMATION: Management Response to Office                 Date:    March 5, 2013
            of Inspector General Draft Report on Oversight of
            Dulles Corridor Metrorail Project Phase 2
   From:     Peter M. Rogoff                                        Reply to    Dominique Paukowits
                                                                    Attn. of:
             Administrator                                                      (202) 366-5152

     To:    Calvin L. Scovel III
            Inspector General

The Office of Inspector General (OIG) offers a snapshot of issues relating to Phase 2 of the Dulles
project in its draft report, which we seek to supplement with the following information that brings
matters relating to FTA oversight up to date. FTA has been providing effective and robust
oversight of the Dulles Phase 2 project at an unprecedented level for a project not receiving FTA
funding.

FTA Providing Proactive Oversight of Dulles Phase 2 Project

FTA committed to provide oversight of the project cost and schedule, and the Metropolitan
Washington Airport Authority’s (MWAA) implementation of its project management
responsibilities as part of the December 2011 Dulles Corridor Metrorail Project Phase 2
Coordinating Committee Memorandum of Agreement (MOA). Subsequently the FTA
Administrator and MWAA’s Chief Executive Officer met to discuss roles and responsibilities
related to oversight under the MOA.

During the project development phase, FTA has been reviewing the cost, scope and schedule
based on MWAA’s preliminary engineering plans and project cost estimates. Since the decision
by the local funding partners to finance this project on July 3, 2012, FTA has had regular
meetings with MWAA on project execution and the design/build procurement.

On November 27, 2012, FTA transmitted to MWAA an oversight plan for the project addressing
project quality, schedule and cost. FTA’s oversight plan sets out a process to monitor adherence
to the project scope, schedule and budget through the final design and construction phases of the
project. The plan specifies that FTA will provide oversight of compliance with Federal
requirements including the environmental process and requirements specific to any
Transportation Infrastructure Finance and Innovation Act (TIFIA) loan. Additionally, FTA will
provide oversight of the project management plan, the safety and security management plan, and
the risk and the contingency management plan.


            Appendix. Agency Comments
                                                                                              18



Since FTA’s oversight plan was issued, MWAA and FTA have continued to move forward.
MWAA submitted its draft Project Management Plan (PMP) to FTA on December 7, 2012, its
draft Quality Program Plan on December 12, 2012, and its Draft Risk and Contingency
Management Plan on December 18, 2012. These documents have been reviewed by FTA and
comments were provided to MWAA on January 22, 2013. In addition, meetings are scheduled in
March with MWAA to further discuss the plans.

As the project proceeds, FTA will use the PMP as the basis against which to consider MWAA’s
project implementation progress and management. Although our oversight efforts are underway,
specific elements of the oversight strategy may change based on funding mechanisms,
assignment of responsibilities among participating entities, and the continued evolution of the
project. FTA intends to provide vigilant oversight throughout the project.

We appreciate this opportunity to offer additional perspective on the OIG draft report. We also
appreciate the courtesies of the OIG staff in conducting this review. Please contact Dominique
Paukowits (202) 366-5152 with any questions or requests for additional assistance.




       Appendix. Agency Comments
